U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Brendon Janis v. United States of America,
S.Ct. No. 21-68
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 15,
2021, and placed on the docket on July 19, 2021. The government’s response is due on August
18, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 17, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-0068
JANIS, BRENDON
USA

STEPHEN D. DEMIK
1617 SHERIDAN LAKE ROAD
RAPID CITY, SD 57701
605-341-4400
ADAM G. UNIKOWSKY
JENNER & BLOCK LLP
1099 NEW YORK AVE., N.W.
SUITE 900
WASHINGTON, DC 20001
202-639-6000
AUNIKOWSKY@JENNER.COM

